           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   Administrative Costs Claimed by
      the Delaware Disability
      Determination Services

  August 2005         A-13-05-15011




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM
Date:   August 19, 2005                                                           Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject: Administrative Costs Claimed by the Delaware Disability Determination Services
        (A-13-05-15011)


        OBJECTIVE
        Our objectives were to (1) evaluate the Delaware Disability Determination Services'
        (DE-DDS) internal controls over the accounting and reporting of administrative costs,
        (2) determine whether costs claimed for Federal Fiscal Years (FY) 2001 through 2003
        were allowable and properly allocated and funds were properly drawn, and (3) assess
        the general security controls environment.

        BACKGROUND
        Disability Determination Services (DDS) in each State or other responsible jurisdiction
        perform disability determinations under both the Disability Insurance and Supplemental
        Security Income programs. Such determinations are required to be performed in
        accordance with Federal law and underlying regulations.1 In carrying out its obligation,
        each DDS is responsible for determining claimants' disabilities and ensuring adequate
        evidence is available to support its determinations.2

        The Social Security Administration (SSA) reimburses the DDS for 100 percent of
        allowable program expenditures up to the limit of its funding authority. The DDS draws
        Federal funds through the Department of the Treasury's (Treasury) Automated Standard
        Application for Payments system in accordance with Federal regulations3 and an
        intergovernmental agreement entered into by Treasury and the State of Delaware under
        the Cash Management Improvement Act.4

        1
            20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
        2
            20 C.F.R. §§ 404.1613(a), 404.1614(a), 416.1013(a) and 416.1014(a).
        3
            31 C.F.R. 205.
        4
            Pub. L. No. 101-453, 31 U.S.C § 6501.
Page 2 – Laurie Watkins


DE-DDS, which is located in New Castle, Delaware, is a component of the Delaware
Department of Labor (DE-DOL), Division of Vocational Rehabilitation.5 The Division of
Vocational Rehabilitation accounts for the DE-DDS' disbursements, completes and
submits the State Agency Report of Obligations for SSA Disability Programs (Form
SSA-4513) to SSA, and prepares requests to transfer cash from Treasury to the State
Treasurer. The State's indirect costs for the DE-DDS are determined based on rates
negotiated and approved by the Department of Labor. As of July 7, 2004, DE-DDS
reported program disbursements and unliquidated obligations on Form SSA 4513, as
shown in Table 1. There were no unliquidated obligations for FYs 2001 through 2003.
See Appendix B for our Scope and Methodology.


        Table 1: DE-DDS Report of Disbursements and Unliquidated Obligations
                               FYs 2001 Through 2003

    REPORTING ITEM                FY 2001                  FY 2002              FY 2003
Disbursements
    Personnel                        $1,665,754               $1,749,575          $1,859,097
    Medical                             824,597                  947,099             892,026
    Indirect Costs                      397,458                  556,270             626,167
    Other                               893,481                  945,216             941,497
Total Disbursements                  $3,781,290               $4,198,160          $4,318,787
Unliquidated Obligations                     $0                       $0                  $0

RESULTS OF REVIEW
Generally, except for indirect costs, DE-DDS had effective internal controls over the
accounting and reporting of administrative costs. Also, most costs claimed during our
audit period were allowable and properly allocated and funds were properly drawn.
Finally, the general security controls we reviewed were effective. However, we
identified some discrepancies where action needs to be taken. Discrepancies were
found in the indirect and other cost categories.




5
    DE-DDS moved from Wilmington, Delaware, to New Castle, Delaware, in 2005.
Page 3 – Laurie Watkins


ADMINISTRATIVE SERVICES AND TECHICAL SUPPORT COSTS
SHOULD BE INCLUDED IN AN APPROVED ALLOCATION PLAN

During our audit, the basis for allocating DE-DOL administrative services and technical
support (AS&T) costs to the DE-DDS had not been formally approved by the
Department of Labor. These costs were reported as direct costs6 on the SSA-4513.
The AS&T costs totaled approximately $296,879 for the 3 FYs we audited ($92,224 in
FY 2001; $100,228 in FY 2002; and $104,427 in FY 2003).

According to SSA policy,7 the parent agency's method of charging its indirect costs must
be reviewed and approved by the Department of Labor, Office of Cost Determination, or
other designated Federal department. The parent agency should identify services that
benefit both the SSA disability program and other programs it administers and develop
indirect cost proposals to distribute the costs of such services to the programs involved.
The parent agency must submit its own indirect cost proposal to recover its own indirect
costs. In addition to SSA policy, a cost allocation plan for distributing indirect costs
should be prepared in accordance with policies and procedures contained in Office of
Management and Budget Circular A-87, Cost Principles for State, Local and Indian
Tribal Governments.

A DE-DOL official provided us with a copy of a departmental-level cost allocation plan
for the AS&T costs that were submitted to the Department of Labor for approval in 1995.
However, DE-DOL could not provide us a copy of the approved plan. We were
provided with a document showing the Department of Labor approved the
departmental-level methodology used to allocate the AS&T costs on May 27, 2005.

DE-DDS benefited from the AS&T services. The type of services included in AS&T
costs were appropriate for reimbursement and therefore allowable. We recalculated the
AS&T costs. Although we were able to recalculate costs using DE-DDS’ methodology,
the Department of Labor had not approved the methodology when we concluded our
audit.

Delaware officials acknowledged the AS&T costs were not included in the State-wide
Indirect Cost Allocation Plan. However, an official of the Department of Labor, Office of
Cost Determination, indicated the AS&T costs were indirect costs that should have been
included in an approved State-wide Indirect Cost Allocation Plan. We agree and believe
the AS&T costs should be reported as indirect costs on the SSA-4513.




6
    Reported under the All Other Nonpersonnel Costs category as miscellaneous costs.
7
    Program Operations Manual System, DI 39506.300.
Page 4 – Laurie Watkins


UNSUPPORTED COSTS

We found unsupported costs of $12,200 (less than 1 percent of the total amount of
disbursements)—$11,100 for telephone charges and $1,100 for off-site storage rental
fees.

•   The DE-DDS was unable to provide adequate documentation supporting the basis
    for the allocation of telephone costs from the parent agency for our audit period.

•   The DE-DDS used an off-site storage location for the first 5 months of FY 2001. The
    parent agency allocated storage costs to the DE-DDS based on square footage
    used.

DE-DDS officials acknowledged there was no documentation to support the monthly
charges from the parent agency.

After the June 28, 2005 issuance of our draft report summarizing the results of our
audit, DE-DDS provided us support for $11,100 in telephone charges. However, we
believe the balance of $1,100 of unsupported costs for off-site storage rental fees
remains undocumented.

UNALLOWABLE COSTS AND COMPUTATION ERRORS
During our audit, we found the following:

•   The lessor charged DE-DDS $1,000 for intermittent weekend energy use. However,
    the lease states the lessor is responsible for energy use. The lease agreement does
    not allow the lessor to charge for weekend energy use. Therefore, this cost was
    unallowable.

•   The lessor charged $200 for service calls for such things as resetting tripped
    breakers. The lease states the lessor is responsible for the expenses for building
    services. Therefore, this was an unallowable cost.

•   We found six instances where DE-DDS’ computation of indirect costs was incorrect.
    The computation errors resulted in an underpayment of $1,281.

•   DE-DDS made a $200 overpayment to a medical consultant as a result of a
    computation error.

As a result of these errors, there was a net overpayment of $119. We discussed these
discrepancies with DE-DDS officials. The officials stated they would take corrective
action to address unallowable costs and errors.
Page 5 – Laurie Watkins


NONCOMPLIANCE WITH STATE POLICY
Two temporary employees worked for a vendor that had no contract with the State of
Delaware during our audit period. Title 29, chapter 6911, of the Delaware Code
indicates that nonprofessional services shall be procured through State-wide contracts.
The State of Delaware awarded a State-wide contract that listed approved vendors for
the period April 6, 2003 through April 5, 2005. The vendor that employed these
temporary employees was not on the approved vendor list. DE-DDS staff informed us
that the temporary employees were “grandfathered-in” to the contract. However, there
was insufficient documentation to support this statement. In addition, we found the
DE-DDS paid the vendor, not listed in the contract, about $3.00 an hour more per
employee than the maximum allowed under the State-wide contract.

CONCLUSION AND RECOMMENDATIONS
Generally, except for indirect costs, DE-DDS had effective internal controls over the
accounting and reporting of administrative costs. Also, most costs claimed during our
audit period were allowable and properly allocated and funds were properly drawn.
Finally, the general security controls we reviewed were effective. However, we
identified some discrepancies where action needs to be taken.

We recommend SSA:

1. Instruct the DE-DOL and DE-DDS to include AS&T costs in the State-wide Indirect
   Cost Allocation Plan and report the AS&T costs as indirect costs on the SSA-4513.

2. Work with DE-DOL and DE-DDS to determine the validity of the unsupported costs
   of $1,100 and refund any disbursements for which support could not be provided.

3. Instruct the DE-DOL and DE-DDS to provide adequate documentation to support the
   action to grandfather-in temporary employees.

AGENCY COMMENTS
SSA agreed with our recommendations. In response to Recommendation 1, the
Agency stated DE-DOL should amend the State-wide cost allocation plan for the state
FY covering the period July 1, 2005 through June 30, 2006 to incorporate the AS&T
charges. SSA also agreed that the AS&T charges should be reported as indirect costs
on the SSA-4513 and will instruct the DE-DDS to reclassify these costs as indirect
costs. Regarding Recommendation 2, SSA stated that DE-DOL provided us with the
supporting documentation for the telephone charges of $11,100 after we released our
draft audit report. This portion of the finding has been resolved. The balance of
unsupported costs of $1,100 for off-site storage rental fees remains undocumented and
should be refunded to SSA. Concerning Recommendation 3, the Agency recognized
Page 6 – Laurie Watkins


that DE-DOL’s response did not adequately address the issue. SSA will recommend to
DE-DOL to alter the State of Delaware's procurement policy to add appropriate
language regarding grandfathering provisions. See Appendix C for the full text of the
Agency’s comments.

STATE AGENCY COMMENTS
Generally, DE-DOL disagreed with our recommendations. In response to
Recommendation 1, DE-DOL stated the AS&T charges complied with Office of
Management and Budget Circular A-87 and had been approved by the Department of
Labor’s Regional Cost Negotiator. Regarding Recommendation 2, DE-DOL stated it
provided supporting documentation for the $11,100 in telephone charges. DE-DOL
agreed it could not locate supporting documentation for $1,100 in off-site storage bills.
Concerning Recommendation 3, DE-DOL stated it provided us documentation in the
form of confirmation in writing from the State Procurement Officer. See Appendix D for
the full text of DE-DOL’s comments.

OIG RESPONSE
We remain committed to our recommendations. Concerning Recommendation 1, the
Department of Labor’s Regional Cost Negotiator informed us that DE-DOL should
amend the State-wide cost allocation plan for the State FY covering the period
July 1, 2005 through June 30, 2006, to incorporate the AS&T charges. We also believe
AS&T charges should be reported as indirect costs on the SSA-4513. Regarding
Recommendation 2, DE-DDS provided us support for $11,100 in telephone charges on
July 20, 2005, after we issued our draft report on June 28, 2005. This additional
information resolved a significant amount of the unsupported costs. However, we also
believe the balance of unsupported costs of $1,100 for off-site storage rental fees
remains undocumented and should be refunded to SSA. Concerning Recommendation
3, the documentation DE-DDS provided to support the action to grandfather-in
temporary employees was a January 20, 2005, email message from the State
Procurement Officer stating the employees were grandfathered-in. We believe the
email message without further documentation is not adequate to support the action to
grandfather-in temporary employees. No further information was provided after we
made several attempts to obtain additional supporting documentation.




                                              S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – State Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DE-DDS        Delaware Disability Determination Services
DE-DOL        Delaware Department of Labor
FY            Fiscal Year
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                       Appendix B

Scope and Methodology
SCOPE
To achieve our objectives, we:

•   Reviewed applicable Federal law and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by Delaware Disability Determination
    Services (DE-DDS) and drawdowns of SSA program grant funds.
•   Interviewed staff and officials at DE-DDS; Delaware Department of Labor, Division of
    Vocational Rehabilitation; and SSA’s Philadelphia Regional Office.
•   Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.
•   Evaluated and tested internal controls regarding accounting, financial reporting and
    cash management activities.
•   Reconciled State accounting records to the administrative costs reported by
    DE-DDS on the State Agency Report of Obligations for SSA Disability Programs
    (Form SSA-4513) for Federal Fiscal Years (FY) 2001 through 2003.
•   Reviewed the administrative costs DE-DDS reported on its Forms SSA 4513 for FYs
    2001 ($3,781,290), 2002 ($4,198,160), and 2003 ($4,318,787).
•   Examined certain administrative expenditures (personnel, medical service, and all
    other nonpersonnel costs) incurred and claimed by DE-DDS for FYs 2001 through
    2003 on the Form SSA-4513. We used statistical sampling to select expenditures to
    test for support of the medical service and all other nonpersonnel costs.
•   Examined the indirect costs claimed by DE-DDS for FYs 2001 through 2003.
•   Discussed indirect costs with the cognizant agency for Delaware, the Department of
    Labor.
•   Compared the amount of SSA funds drawn to support program operations to the
    expenditures reported on the Form SSA-4513.
•   Reviewed DE-DDS electronic data processing general controls and physical security
    at its offices in Wilmington, Delaware.

We concluded the electronic data used in our audit were sufficiently reliable, given the
audit objectives and intended use of the data, and should not lead to incorrect or
unintentional conclusions. We assessed the reliability of the electronic data by
reconciling it with the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on selected data elements from the electronic files.

We performed work at the DE-DDS in Wilmington, Delaware, and the Office of Audit in
Baltimore, Maryland. We conducted fieldwork from August 2004 through May 2005.
The audit was conducted in accordance with generally accepted government auditing
standards.



                                           B-1
SAMPLING METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained data extracts from DE-DDS for FYs 2001 through 2003. Also, we
randomly selected one month in each of the 3-year audit period and reviewed
supporting documents for all Medical Consultants under contract to DE-DDS.

Personnel Costs

We randomly selected one pay period in FYs 2001, 2002, and 2003 and reviewed all
personnel transactions for the pay period. We tested DE-DDS payroll records to ensure
DDS correctly paid employees and adequately documented these payments.

For medical consultant costs, we randomly selected one month in FYs 2001, 2002, and
2003. We selected all medical consultants during that period and verified that the
medical consultants were paid in accordance with the approved contract.

Medical Costs

We stratified medical costs into medical evidence of record and consultative
examinations and selected a stratified random sample of 150 items (50 items from each
stratum in FYs 2001, 2002, and 2003).

Indirect Costs

We determined the State-wide indirect cost allocation to the parent agency was
performed using an indirect cost negotiation agreement approved by the cognizant
Federal agency (Department of Labor). The agreement states “…any fixed rate
contained in the agreement was based on an estimate of the cost which will be incurred
during the period for which the rate applies. When the actual costs for such period have
been determined, an adjustment will be made in the negotiation following such
determination, to compensate for the difference between the cost used to establish the
fixed rate and that which would have been used were the actual costs known at the
time.” We reviewed the State-wide allocation for FYs 2001, 2002, and 2003, to verify
the State applied the approved fixed rate to the DDS.

All Other Nonpersonnel Costs

We selected a stratified random sample of 150 items (50 items from each FY) from the
All Other Non-personnel Costs category. We stratified the transactions into the
appropriate categories and distributed the 50 sample items for each year between
categories based on the proportional distribution of the costs.




                                          B-2
                                                                             Appendix C

Agency Comments

August 4, 2005

Administrative Costs Claimed by the Delaware Disability Determination Services
(A-13-05-15011)-Response

A review of the draft report entitled, Administrative Costs Claimed by the Delaware Disability
Determination Services (DDS) (A-13-05-15011) for Fiscal Years ending 2001 through 2003,
contained three recommendations. We have received the Delaware Department of Labor
(DOL) response to the draft report, including their supporting documentation.

Our comments are as follows:

Instruct the DE-DOL and the DE-DDS to include Administrative Services and Technical
Support (AS&T) costs in the Statewide Indirect Cost Allocation Plan and report the AS&T
costs as indirect costs on the SSA-4513.

•   We agree with the recommendation that DE-DOL should amend the statewide cost
    allocation plan for the state fiscal year covering the period July 1, 2005 through June 30,
    2006 to incorporate the AS&T charges. We also agree that the AS&T charges should be
    reported as indirect costs on the SSA-4513 and will instruct the DE-DDS to reclassify these
    costs as indirect costs.

Work with the DE-DOL and the DE-DDS to determine the validity of the unsupported
costs of $12,200 and refund any disbursements for which support could not be provided.

•   We agree with this recommendation partially. Unsupported costs of $12,200 includes two
    specific costs; $11,100 for telephone charges and $1,100 for off-site storage rental fees.
    The DE-DOL provided the OIG with the supporting documentation for the telephone charges
    of $11,100 subsequent to the release of the draft audit report. This portion of the finding
    has been resolved.

•   The balance of unsupported costs of $1,100 for off-site storage rental fees remains
    undocumented and should be refunded to SSA.




                                               C-1
Instruct the DE DOL and the DDS to provide adequate documentation to support the
action to grandfather-in temporary employees.

•   We agree with this recommendation and recognize that DE-DOL response does not
    adequately address the issue. SSA will recommend to DE-DOL to alter the State of
    Delaware's procurement policy to add appropriate language regarding grandfathering
    provisions.

If you have any questions, please contact Betty Martin in the Center for Disability Programs at
215-597-2047.

                                                     /s/
                                                     Laurie Watkins




                                               C-2
                        Appendix D

State Agency Comments
D-1
D-2
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Randy Townsley, Audit Manager, General Management Audit Division
   (410) 966-1039


Acknowledgments

   William Alan Carr, Auditor-in-Charge

   Eugene Crist, Auditor

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-13-05-15011.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
